la
246 N.J. 49
Supreme Court of New Jersey
Janet Yijuan FOU, Plaintiff-Respondent,
v.
Joe Zhuowu FOU, Defendant.
Kevin K. Tung, Esq., Appellant-Petitioner.
C-545 September Term 2020084736
April 9,2021
ORDER
A petition for certification of the judgment in A002145-18 having been submitted to this Court, and the
Court having considered the same;
It is ORDERED that the petition for certification
is denied, with costs; and it is further
ORDERED that the notice of appeal is dismissed.

2a
UNPUBLISHED OPINION. CHECK COURT
RULES BEFORE CITING.
Superior Court of New Jersey, Appellate Division.
Janet YIJUAN FOU, Plaintiff-Respondent,
v.
Joe ZHUOWU FOU, Defendant-Respondent.
Kevin K. Tung, Esq., Appellant.
DOCKET NO. A-2145-18T1
Submitted December 16,2019Decided June 12,2020
On appeal from the Superior Court of New Jersey,
Chancery Division, Family Part, Middlesex County,
Docket No. FM-12-1685-09.
Attorneys and Law Firms
Kevin K. Tung, appellant pro se.
Pashman Stein Walder Hayden, PC, attorneys for
respondent Janet Yijuan Fou (James A.
Plaisted and Michael J. Zoller. of counsel and on the
brief).
Before Judges Rothstadt. Movnihan and Mitterhoff.
Opinion
PER CURIAM

3a
Kevin K. Tung, a New Jersey attorney, appeals
from a Family Part order that denied his motion to
intervene in a divorce action. Tung previously
represented plaintiff Janet Yijuan Fou in the divorce
action, but he had been procured to do so by defendant
Joe Zhuowu Fou. The matter concluded with the Fous
executing a final judgment of divorce (JOD) that
incorporated a property settlement agreement (PSA)
prepared by Tung. Plaintiff later moved for relief from
the JOD pursuant to Rule 4:50-1. After a multi-day
hearing, a Family Part judge granted plaintiff's motion.
In October 2014, the judge issued an amended final JOD, which we affirmed. Fou v. Fou. No. A-1569-14 (App. Div.
July 21, 2016).
Thereafter, the Office of Attorney Ethics (OAE)
placed Tung under investigation. Plaintiff also sued
Tung for malpractice and obtained a judgment against
him. Tung then filed unsuccessful motions to intervene
in this action with this court and the Family Part,
arguing that the JOD should not have been vacated. This
appeal ensued.
We summarize the pertinent facts recited in our
prior opinion. See Fou. slip op. at 1-8. The Fous were
married in China in 1975, and they relocated to the
United States in 1985. Plaintiff spoke Mandarin and, at
all times relevant to this appeal, had a limited
understanding of the English language. The parties
began to discuss divorce in 2007, and they executed two
agreements in Mandarin that allowed for equal
distribution of property and assets of a family business
at a future date. In February 2009, the parties jointly
met with Tung, an attorney that defendant had chosen.

4a
Plaintiff signed a retainer agreement with Tung. That
same month, the parties executed two additional
agreements in Mandarin that provided for equal
division, at a future date, of certain family and business
assets located in China.
Tung also prepared a PSA, written in English.
The PSA stipulated that defendant would pay plaintiff
one-third of his salary as support; each party would be
responsible for his or her debts and obligations; the
marital residence would be sold and the net proceeds
divided equally; each party would retain all other assets
in his or her possession; and there would be no other
equitable distribution. Tung filed a complaint on
plaintiffs behalf, and on May 4, 2009, the judge entered
a JOD, which incorporated the PSA.
In September 2011, plaintiff moved, pursuant
to Rule 4:50-1, for relief from the parties' JOD, claiming
that the PSA differed markedly from their prior
agreements. On September 12, 2012, a Family Part
judge granted plaintiffs motion. In so doing, the judge
found that Tung had conflicting loyalties, as defendant
procured his services, but Tung represented plaintiff
during the parties' divorce. The judge also determined
that despite representing plaintiff, Tung prepared the
PSA based on defendant's instructions. The judge
further concluded that plaintiffs retainer agreement
was invalid, as independent counsel had not reviewed
the agreement. The judge noted blatant inconsistencies
between the prior agreements and the PSA, which made
no mention of dividing company assets. Therefore, the
judge invalidated all of the agreements and determined

1

5a
that the issues of equitable distribution and spousal
support would need to be re-litigated.
Thereafter, default was entered against
defendant pursuant to Rule 4:43-1, and plaintiff filed a
notice of equitable distribution in accordance
with Rule 5:5-10. After considering plaintiffs notice of
equitable distribution, another judge filed an amended
final JOD on October 22, 2014. The amended JOD
awarded plaintiff alimony and assets that amounted to
around half of the parties' total assets. It also awarded
plaintiff attorney's fees of $229,389.69.
Defendant appealed from the amended final JOD,
and we affirmed. Fou. No. A-1569-14. Our Supreme
Court denied certification. See Fou v, Fou. 238 N.J. 370
(2019). The day after the opinion was rendered, we
forwarded our opinion to the OAE. In August 2012,
plaintiff sued Tung for malpractice. See Fou v. Tung.
MID-L-6259-12. The malpractice action proceeded to
trial, and on April 25, 2018, a jury found in plaintiffs
favor.1
On August 30, 2018, the OAE filed a complaint
against Tung. The complaint alleged several violations of
the Rules of Professional Conduct stemming from his
activities in this matter. In the fall of 2018, Tung filed
motions in the Family Part and in this court to intervene
in the original divorce action. Both the Family Part and
this court denied Tung's motions. The Family Part judge
entered an order on December 18, 2018 stating,
Tung's [motion] fails because he is unable to
implead into this matter under [Rule] 4:31 [sic].
Moreover, [his] prior application to intervene was

6a
rejected, and thereafter submitted to the
Appellate [Division] where the appeal was
denied. Finally, ... Tung's claims are not against
[p]laintiff or [defendant in the instant matter, but
instead involve the actions of the [t]rial [j]udge.
This appeal ensued.
On appeal, Tung raises the following arguments:
I. THE [JUDGE] ... ERRED IN DENYING
[TUNG'S] MOTION TO INTERVENE.
A. [TUNG'S] MOTION TO INTERVENE IS AS
OF RIGHT.
B. NO UNDUE DELAY OR PREJUDICE TO
THE ORIGINAL PARTIES.
C.
THE
FOUR
CRITERIA
FOR
INTERVENTION AS OF RIGHT ARE MET.
II. [THE FAMILY PART JUDGE'S] OPINION
AND [THE] OPINION OF THE APPELLATE
DIVISION VIOLATE ... TUNG'S DUE
PROCESS RIGHT.
A. THE RIGHT TO PRACTICE LAW IS A
PROPERTY RIGHT.
B. THE OPINIONS OF [THE FAMILY PART
JUDGE] AND [THE] APPELLATE DIVISION

7a
RISE TO A LEVEL OF A PUBLIC
REPRIMAND-DUE PROCESS MUST BE
GIVEN
BEFORE
RENDERING
A
DECISION.
III. [THE FAMILY PART JUDGE'S]
DECISION WAS PREMATURE AND A
PRODUCT OF [FRAUD] UPON THE COURT
BY [PLAINTIFF'S] ATTORNEYS.
A. TIMELINES OF MAJOR EVENTS
LEADING TO THE FRAUD UPON THE
COURT BY PLAINTIFF'S ATTORNEYS.
B.
ATTORNEYS
FOR
PLAINTIFF'S
RESPONSES TO [THE OAE],
C. ATTORNEYS [WHO] MADE THE
MISREPRESENTATION
HAD
A
FINANCIAL INTEREST IN THE OUTCOME
OF THE CASE.
D. FRUIT OF THE POISONOUS TREE
DOCTRINE ON [THE FAMILY PART
JUDGE'S] DECISION.
E.
[THE
FAMILY PART JUDGE'S]
DECISION MUST BE SET ASIDE, BECAUSE
IT IS A PRODUCT OF FRAUD UPON THE
COURT.

8a
IV. PUBLIC POLICY MANDATES THE
DISMISSAL OF THE MALPRACTICE
COMPLAINT.
We conclude that Tung's arguments lack
sufficient merit to warrant discussion in a written
opinion. R. 2:ll-3(e)(l)(E). We add only the followingbrief comments.
Our Rules of Court govern intervention at trial,
and the trial judge's interpretation of those rules is
subject to de novo review. Washington Commons. LLC
v. City of Jersey City. 416 N.J. Super. 555.560 (App. Div.
2010).
Rule 4:33-1, which governs intervention as a
matter of right, sets forth four criteria:
The applicant must (1) claim “an interest relating
to the property or transaction which is the subject
of the transaction,” (2) show he is “so situated that
the disposition of the action may as a practical
matter impair or impede his ability to protect that
interest,” (3) demonstrate that the “applicant's
interest” is not “adequately represented by
existing parties,” and (4) make a “timely”
application to intervene.
TMeehan v. K.D. Partners. L.P., 317 N.J. Super. 563. 568,
(App. Div. 1998) (quoting Chesterbrooke Ltd. P'ship v.
Planning Ed.. 237 N.J. Super. 118,124 (App. Div. 1989)).!
In deciding a request to intervene pursuant
to Rule 4:33-1. if the movant meets the rule's
requirements, intervention must be permitted. See Am.

9a
Civil Liberties Union of N.J.. Inc, v. County of Hudson.
352 N.J. Super. 44, 70 (App. Div. 2002).
Tung unpersuasively asserts that the judge
should have allowed him to intervene as of right because
he maintains a property interest in his privilege to
practice law in New Jersey. However, Tung does not
claim “an interest relating to the property or transaction
which is the subject of the transaction,” as required
by Rule 4:33-1. Namely, Tung's ability to practice law in
New Jersey is unrelated to the Fous' original divorce
proceeding. Tung's motion therefore fails on the first and
most fundamental requirement of Rule 4:33-1. As the
judge found, Tung's motivation to intervene was his
desire to challenge prior court rulings, thereby
potentially launching a collateral attack on the
malpractice judgment against him. As the judge
correctly determined, that motivation is woefully
insufficient to allow him to intervene in the parties'
divorce action.
Affirmed.

10a
12/18/18
Honorable Craig L. Corson, J.S.C. Superior Court of
New Jersey Chancery Division, Family Part
Middlesex County Family Courthouse 120 New
Street, Post Office Box 2691 New Brunswick, NJ
08903
Superior Court of New Jersey Chancery Division,
Family Part Middlesex County
Docket No.: FM-12-1685-09C
CIVIL ACTION
ORDER
JANET YIJUAN.FOU, Plaintiff,
v.
JOE ZHUOWU FOU, Defendant:
v.
KEVIN K. TUNG, ESQ, Interested Third Party
THIS MATTER having been opened to the
Court on September 10, 2018, by Notice of Motion filed
by Interested Third Party, Kevin . Tung, Pro Se,; with
opposition having been filed by Plaintiff, Janet Fou,
represented by James A Plaisted, Esq.; and the Court
having considered the papers; and for good cause shown:
IT IS on this 18th day of December, 2018,
ORDERED as follows:

11a
1. Interested Third Parties' Notice of Motion to set
aside the opinion or decision of Judge Barry A.
Weisberg dated September 12, 2012 is hereby
DENIED. Mr. Tung's Notice of Motion fails
because he is unable to implead into this matter
under R 4:31. Moreover. Interested Third
Party's prior application to intervene was
rejected, and thereafter submitted to the
Appellate Court where the appeal was denied.
Finally, Mr. Tung's claims are not against
Plaintiff or Defendant in the instant matter, but
instead involve the actions of the Trial Judge.
2. Any other claims for relief not expressly
addressed in the Court's Order are
DENIED WITHOUT PREJUDICE.
A copy of this Order shall be served upon the
parties within seven (7) days.

